<html>
<title> - HOUSING FOR HEROES: EXAMINING HOW FEDERAL PROGRAMS CAN BETTER SERVE VETERANS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                     HOUSING FOR HEROES: EXAMINING

                        HOW FEDERAL PROGRAMS CAN

                         BETTER SERVE VETERANS

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                         INSURANCE, HOUSING AND

                         COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2012

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-158



                  U.S. GOVERNMENT PRINTING OFFICE
76-128                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                   SPENCER BACHUS, Alabama, Chairman

JEB HENSARLING, Texas, Vice          BARNEY FRANK, Massachusetts, 
    Chairman                             Ranking Member
PETER T. KING, New York              MAXINE WATERS, California
EDWARD R. ROYCE, California          CAROLYN B. MALONEY, New York
FRANK D. LUCAS, Oklahoma             LUIS V. GUTIERREZ, Illinois
RON PAUL, Texas                      NYDIA M. VELAZQUEZ, New York
DONALD A. MANZULLO, Illinois         MELVIN L. WATT, North Carolina
WALTER B. JONES, North Carolina      GARY L. ACKERMAN, New York
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
GARY G. MILLER, California           GREGORY W. MEEKS, New York
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
SCOTT GARRETT, New Jersey            RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              WM. LACY CLAY, Missouri
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            JOE BACA, California
MICHELE BACHMANN, Minnesota          STEPHEN F. LYNCH, Massachusetts
KEVIN McCARTHY, California           BRAD MILLER, North Carolina
STEVAN PEARCE, New Mexico            DAVID SCOTT, Georgia
BILL POSEY, Florida                  AL GREEN, Texas
MICHAEL G. FITZPATRICK,              EMANUEL CLEAVER, Missouri
    Pennsylvania                     GWEN MOORE, Wisconsin
LYNN A. WESTMORELAND, Georgia        KEITH ELLISON, Minnesota
BLAINE LUETKEMEYER, Missouri         ED PERLMUTTER, Colorado
BILL HUIZENGA, Michigan              JOE DONNELLY, Indiana
SEAN P. DUFFY, Wisconsin             ANDRE CARSON, Indiana
NAN A. S. HAYWORTH, New York         JAMES A. HIMES, Connecticut
JAMES B. RENACCI, Ohio               GARY C. PETERS, Michigan
ROBERT HURT, Virginia                JOHN C. CARNEY, Jr., Delaware
ROBERT J. DOLD, Illinois
DAVID SCHWEIKERT, Arizona
MICHAEL G. GRIMM, New York
FRANCISCO ``QUICO'' CANSECO, Texas
STEVE STIVERS, Ohio
STEPHEN LEE FINCHER, Tennessee
FRANK C. GUINTA, New Hampshire

           James H. Clinger, Staff Director and Chief Counsel
      Subcommittee on Insurance, Housing and Community Opportunity

                    JUDY BIGGERT, Illinois, Chairman

ROBERT HURT, Virginia, Vice          LUIS V. GUTIERREZ, Illinois, 
    Chairman                             Ranking Member
GARY G. MILLER, California           MAXINE WATERS, California
SHELLEY MOORE CAPITO, West Virginia  NYDIA M. VELAZQUEZ, New York
SCOTT GARRETT, New Jersey            EMANUEL CLEAVER, Missouri
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
LYNN A. WESTMORELAND, Georgia        MELVIN L. WATT, North Carolina
SEAN P. DUFFY, Wisconsin             BRAD SHERMAN, California
ROBERT J. DOLD, Illinois             MICHAEL E. CAPUANO, Massachusetts
STEVE STIVERS, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 14, 2012...........................................     1
Appendix:
    September 14, 2012...........................................    35

                               WITNESSES
                       Friday, September 14, 2012

Ansley, Heather L., Esq., MSW, Vice President, Veterans Policy, 
  VetsFirst......................................................    22
Berg, Steve, Vice President, Programs and Policy, the National 
  Alliance to End Homelessness...................................    24
Crone, Baylee, Technical Assistance Director, the National 
  Coalition for Homeless Veterans................................    26
Flanagan, Cassondra, Veteran, United States Army, Philadelphia, 
  Pennsylvania...................................................     6
Higgins, Eileen, Vice President, Housing Services, Catholic 
  Charities of the Archdiocese of Chicago, Chicago, Illinois.....    31
Hill, Caesar, Veteran, United States Navy, and Community Affairs 
  Manager, Catholic Charities of the Archdiocese of Chicago, 
  Chicago, Illinois..............................................     7
Miller, Sandra A., Chair, Homeless Veterans Committee, Vietnam 
  Veterans of America,...........................................    28
Peyton, Babette, Veteran, United States Army, and resident of 
  Catholic Charities St. Leo Residence, Chicago, Illinois........     8
Stalk, Arnold, Ph.D., Founder, Veterans Village, Las Vegas, 
  Nevada.........................................................    30

                                APPENDIX

Prepared statements:
    Dold, Hon. Robert............................................    36
    Heck, Hon. Joe...............................................    37
    Ansley, Heather L............................................    39
    Berg, Steve..................................................    47
    Crone, Baylee................................................    52
    Flanagan, Cassondra..........................................    58
    Higgins, Eileen..............................................    63
    Hill, Caesar.................................................    67
    Miller, Sandra A.............................................    70
    Peyton, Babette..............................................    77
    Stalk, Arnold................................................    79

              Additional Material Submitted for the Record

Biggert, Hon. Judy:
    Written statement of The American Legion.....................    83
    Written statement of BAM House Inc...........................    84
    Written statement of the Corporation for Supportive Housing..    88
    Written statement of Easter Seals Inc........................    94
    Written statement of the Midwest Shelter for Homeless 
      Veterans...................................................    99
    Written statement of the National Association of REALTORS...   101
    Written statement of Rebuilding Together.....................   103
    Written statement of A Safe Haven............................   107
    Written statement of Veterans Upward Bound...................   111
    Written statement of Vietnam Veterans of America.............   113
    Written statement of Volunteers of America of Florida........   115
    Written statement of St. Paul's Senior Homes & Services......   119


                     HOUSING FOR HEROES: EXAMINING


                        HOW FEDERAL PROGRAMS CAN


                         BETTER SERVE VETERANS

                              ----------                              


                       Friday, September 14, 2012

             U.S. House of Representatives,
                 Subcommittee on Insurance, Housing
                         and Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2128, Rayburn House Office Building, Hon. Judy Biggert 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Biggert, Hurt, Duffy, 
Dold, Stivers; Gutierrez and Waters.
    Also present: Representative Green.
    Chairwoman Biggert. This hearing of the Subcommittee on 
Insurance, Housing and Community Opportunity will come to 
order.
    Without objection, all Members' opening statements will be 
made a part of the record. I will now recognize myself for an 
opening statement.
    Good morning, and welcome to today's hearing entitled, 
``Housing for Heroes: Examining How Federal Programs Can Better 
Serve Veterans.''
    I welcome our witnesses today, and I thank all who traveled 
to participate in today's discussion. President Calvin Coolidge 
once said, ``The nation which forgets its defenders will be 
itself forgotten,'' and I couldn't agree more.
    For our Nation's heroes returning home from duty, 
readapting to civilian life is not always easy. I have heard 
countless stories of hardship from veterans who have attended 
our job fairs or who have worked with me to improve veterans 
health care options by getting Federal approval for a new 
veterans outpatient clinic in my area in Illinois. Whether it 
is because of post-traumatic stress or trouble finding work, 
many veterans in the Chicago area and across the Nation are 
experiencing unstable living conditions or, worst of all, 
homelessness.
    According to the U.S. Department of Housing and Urban 
Development, on one night in January of 2011, over 67 veterans 
were homeless. The U.S. Department of Veterans Affairs 
determined that throughout 2010, more than 144,000 veterans 
experienced homelessness. Veterans make up one-fifth of our 
Nation's homeless population. The bottom line is that even one 
homeless veteran is one too many.
    There are many contributing factors, but data and research 
point to stable housing as a necessary foundation to help 
veterans overcome any of the other challenges that they may 
face. Some safety nets and government assistance programs do 
exist, and more recently, targeted housing programs for 
veterans, such as the HUD-Veterans Affairs Supportive Housing 
(HUD-VASH) Program are a step in the right direction. Congress 
also passed the Homeless Emergency Assistance and Rapid 
Transition to Housing (HEARTH) Act in 2009, which commissioned 
a national plan to end homelessness.
    The current plan sets a goal of ending veterans' 
homelessness by 2015. As the cochair and cofounder of the 
Congressional Caucus on Homelessness, that is a worthy goal 
which I support wholeheartedly.
    Beyond government programs and assistance, countless 
charitable organizations also provide services and housing to 
veterans. In fact, I have heard that occasionally when funding 
is short, the employees of these organizations have reached 
into their own wallets to help a veteran pay a utility bill, 
the rent or a security deposit for an apartment. Not to 
everyone's surprise, there is always room for improvement in 
any program, but particularly Federal programs. That is why we 
are here today, to examine barriers that homeless and low-
income veterans face in securing housing assistance and 
services from Federal programs. We will discuss findings and 
suggestions offered by the Government Accountability Office, 
which has issued a few reports about Federal veterans programs 
where there is room for improvement. We will also explore other 
suggestions to improve Federal agency collaboration, program 
efficiencies, and the administration of homeless housing and 
services for veterans.
    This week, we are working to advance some of those 
suggestions in the form of legislation to help disabled 
veterans, H.R. 6361, the Vulnerable Veterans Housing Reform Act 
of 2012, introduced by Mr. Heck. For purposes of Section 8 and 
public housing assistance, the bill would exempt from a 
veteran's income service-related disability benefits and 
expenses related to in-home aid and care. This bill mirrors 
language in the Affordable Housing and Self-Sufficiency 
Improvement Act of 2012, the broader legislation to reform HUD, 
Section 8 and public housing programs, which this subcommittee 
passed in February.
    We are also working on a bill introduced by Mr. Green, whom 
I would like to commend for all of his work to help our 
veterans. H.R. 6381, the Housing Assistance for Veterans Act of 
2012 (the HAVEN Act), would allow HUD to award grants to 
qualified organizations to rehabilitate and modify the homes of 
disabled or low-income veterans. I look forward to continuing 
to work with both gentlemen so that we can see that these bills 
can be signed into law. I would also like to recognize and 
thank Chairman Bachus for his hard work on these important 
measures.
    While we can never repay our veterans for the selfless 
sacrifices they have made to defend the liberties we enjoy, we 
can work on ensuring that they have a place to call home when 
they return. It is a part of the American dream that they have 
paid a high price to safeguard, and they should have the 
opportunity to experience the blessings that dream represents.
    And with that, I would like to recognize the ranking 
member, Mr. Gutierrez, for an opening statement.
    Mr. Gutierrez. Thank you for yielding, Madam Chairwoman, 
and thank you for holding this hearing. Having homeless people 
in our country, the richest country in the world, is shameful. 
Families with children, and elderly and mentally ill 
individuals, going without a roof over their heads, without 
shelter, is simply outrageous, but as outrageous and inhumane 
as that is, it is simply unacceptable to have homeless 
veterans.
    Beyond unacceptable, it is a tragedy to see our warriors, 
our heroes, sleeping on our streets. I have seen estimates--and 
nobody knows for sure the extent of this problem--that as many 
as 40 percent of the homeless in the United States are, indeed, 
veterans. President Obama, Veterans Affairs Secretary Shinseki, 
and HUD Secretary Donovan have committed this Administration's 
effort to the lofty goal of ending veteran homelessness by the 
year 2015. It is not a partisan posture, and it is not a hollow 
campaign season promise. Rather, it is an achievable goal that 
can be reached if Members in both parties commit themselves.
    Madam Chairwoman, we have a duty to assist our President 
and this Administration and our Government to bring about the 
end of this national shame. This is not creating new dependency 
but, rather, addressing the needs of people who have given so 
much of themselves already. We should be assisting our veterans 
and organizations that support them and demand accountability 
of our government programs that already exist.
    In that context, I look forward to our witnesses' testimony 
about what they consider to be the obstacles that homeless 
veterans face in obtaining needed housing assistance and 
services from Federal programs, and the efforts by Federal 
agencies to collaborate in administrating housing and services 
for homeless veterans in a more effective and efficient manner. 
I look forward to testimony about the HUD-VASH Supportive 
Housing Program, does it have enough homeless shelters and 
vouchers? What kinds of administrative difficulties have they 
encountered and what are the plans to address those? What role 
do not-for-profit service organizations play in the process, 
and is the Federal Government assisting them to maximize their 
potential contributions?
    I am also interested in hearing if there is an 
understanding of the need to have a comprehensive holistic 
strategy to attack veterans' homelessness. Are we appropriately 
dealing with the issues of employment, mental and physical 
health, continuing education, police and community relations, 
and other social and cultural needs of veterans in the context 
of putting an end to veteran homelessness? Are we paying enough 
attention to the special needs of disabled veterans, especially 
wheelchair-bound veterans and of women veterans as it relates 
to housing and homelessness? I look forward to hearing from our 
veteran witnesses and their stories about the impact of 
homelessness in their lives and the lives of their loved ones. 
I am certain that the distinguished panel of witnesses will 
bring specific suggestions to improve the Federal homeless 
veterans housing program, and I am pleased to note that at 
least three of the witnesses come from Chicago, and I give them 
a special welcome this morning.
    Madam Chairwoman, I also look forward to hearing from our 
colleague, Congressman Al Green. Congressman Al Green's bill, 
H.R. 6381, the Housing Assistance for Veterans Act of 2012, 
proposes to create a pilot program at HUD in coordination with 
the VA to rehabilitate and modify disabled and low-income 
veterans' primary residences, working with and providing grants 
to veteran service organizations. I think it is a great program 
that we should take a serious, serious look at. I understand 
there is much more to cover in this hearing, and this is only 
another step in the examination of this critical issue.
    Thank you, and I yield back the balance of my time.
    Chairwoman Biggert. Thank you, Mr. Gutierrez.
    Mr. Green, you are recognized for 5 minutes.
    Mr. Green. Thank you very much, Madam Chairwoman.
    I especially thank you, Madam Chairwoman, for holding this 
hearing, and I thank you for the many efforts that you have 
made as well as your successes in helping our veterans. You 
have been a real friend to veterans, and I greatly appreciate 
all you have done.
    I also especially thank Mr. Gutierrez, who has demonstrated 
through the years a commitment to helping our veterans and who 
has been of great benefit to me as we have tried to move this 
bill forward.
    Former Chairman Frank, now Ranking Member Frank, and 
Chairman Bachus are to be thanked as well. The two of them have 
been very helpful with this piece of legislation, and my hope 
is that they can hear the sound of my voice because I really 
wanted to thank them to make sure that they know how much we 
appreciate what they are doing on behalf of our veterans.
    I, of course, have to thank the veterans themselves. Madam 
Chairwoman, it is a worn-out cliche, but it is still true, and 
it merits saying, we are the land of the free because we are 
the home of the brave, and we can never forget this. Our troops 
go to distant places. They don't go because they desire to go 
to a specific location. They do what they are told. Many of 
them do not return the way they left, and when they return, the 
very least a grateful nation can do is make sure that they have 
good, decent housing, housing that is appropriate for their 
needs.
    Many of them find themselves in facilities that are not 
properly modified to meet their needs. We owe it to them to 
make sure that their needs are met. That is what this piece of 
legislation will help do. I am very confident that this 
legislation is going to be of great benefit to our veterans, to 
many who would not receive help otherwise.
    I would also like to thank two organizations: VetsFirst; 
and Rebuilding Together. These organizations have been working 
together, and are committed to veterans. I am committed to 
working with them to help get this legislation through. They 
have been great advisers. They have helped with some of the 
nuances that they understand because they have hands-on 
experience with our veterans. They know the needs, and they 
have echoed these needs, and we have tried to capture these 
needs in this legislation.
    We find currently that we have about 864,000 veterans with 
service-connected disabilities. Now, this depends on who is 
counting and how you count. The count could go as high as a 
million, depending on who is counting and how you count. We 
also understand that these needs can be met, and I would add 
now that they must be met. I would also add that these 
organizations that I have mentioned, VetsFirst and Rebuilding 
Together, not only provide a service in that they can take 
grant moneys and they can use this money to remodel homes for 
veterans, but they also provide volunteers, and these 
volunteers are giving us hours of labor at no cost. This labor 
helps us to leverage the dollars that we receive. In fact, for 
every $1 in Federal funds, we can leverage about $3, for every 
one. So we have a three-to-one ratio. And we also know that 
these organizations are willing to match dollars. They will 
match each of these grants, and they do so with no less than 50 
percent of the grant. So we are helping veterans. We have NGOs 
that are available to do this.
    Volunteerism is alive and well. Bipartisanship is alive and 
well. This bill should be alive and well, and I hope that it 
will move forward rather quickly so that we can immediately, if 
not sooner, help those who are in dire need of the help that we 
can provide. This is not beyond our reach. This is within our 
grasp. It is available to us here. We only have to translate it 
into meaningful legislation that can move quickly and get to 
those in dire need of what we can provide.
    Madam Chairwoman, I would like to close as I began. I thank 
you. It means a lot to me that you have been willing to do 
this.
    Ranking Member Gutierrez, I thank you, and today I am not 
appealing, I am not requesting; I am not too proud to beg for 
help for our veterans.
    I yield back.
    Chairwoman Biggert. Thank you, Mr. Green.
    We will now turn to our panel of witnesses, and let me just 
say that, without objection, your written statements will be 
made a part of the record, and you will each be recognized for 
a 5-minute summary of your testimony.
    I am delighted to have three veterans who really know what 
is going on at this time in housing. First, we have Ms. 
Cassondra Flanagan from Philadelphia, Pennsylvania. Welcome.
    Second, Mr. Caesar Hill from Chicago--we are always happy 
to recognize our home State people here.
    And third, Ms. Babette Peyton from Chicago. It turns out 
that I have known Babette for quite a while, and I am really 
happy to see her. I haven't seen her in the last few years 
because she has been busy in the military.
    So, thank you all for being here.
    And with that, we will start with Ms. Flanagan.
    You are recognized for 5 minutes for your opening 
statement. If you would turn on your microphone there so that 
it lights up green, and pull it kind of close so we can hear.

 STATEMENT OF CASSONDRA FLANAGAN, VETERAN, UNITED STATES ARMY, 
                   PHILADELPHIA, PENNSYLVANIA

    Ms. Flanagan. Madam Chairwoman, I want to thank you for 
listening to what I have to say as a veteran. I want to thank 
Mr. Green and Mr. Gutierrez as well. Thanks for having me.
    I enlisted in the United States Army in 1999 at the age of 
17-years old. I came with a small suitcase, and my first duty 
station was Korea. I was ordered to the 4th Infantry Division 
at Fort Hood, Texas, and later I deployed to Iraq for the first 
time from a unit in that division. I received orders for Iraq a 
few months later, after reenlisting and being reassigned to 
Fort Drum, New York.
    Once my term of service was completed in 2006, I returned 
home to Sicklerville, New Jersey. It is a suburb of Camden, New 
Jersey. I returned home with a DD214, a beautiful 3-year-old 
daughter, a set of divorce papers, a host of latent internal 
writhe, and a lot of excitement about the new era in my life. I 
was pretty happy because I was a veteran. I planned to use all 
my skills and talents in a meaningful way. I decided to get an 
associate's degree from the local community college. After 
graduating, I was accepted to Temple University.
    You asked why it is difficult to secure housing. I would 
say that during those 6 years of college, I rode my bicycle to 
school. I worked odd jobs. I had short-term employment. I 
begged teachers to let me bring my daughter to class. I ate 
ramen noodles. In general, I lived a college life. I felt 
deeply blessed and grateful that I had the Montgomery G.I. Bill 
at my disposal. Oftentimes, it was my sole documented source of 
income--$1,000-plus of tax-free money awarded by the government 
on a monthly basis. I secured housing by begging rental 
managers and landlords to accept this as proof of income. I 
arrived with child in tow, brought in cash, set up furlough 
accounts, and whatever other requirements property managers 
requested. During the summer months, they were especially 
difficult because I got in the habit of saving my income tax 
and using that for my month's rent during the summer because 
the GI bill rates are lower, when school sessions are less.
    If you ask me what suggestions do I have to improve 
outreach, I would say before I found my way to the Philadelphia 
Veterans Multi-Service & Education Center (PVMSEC), I didn't 
have enough income. Disability and other government income 
cannot be claimed as income on a finance assessment document, 
so that income I couldn't prove. No organization actually wants 
to help you until you have an eviction notice in hand.
    The individuals who helped me the most were my mother, 
sister, and other individuals from the community. The 
maintenance man at my apartment complex, Mr. Charles, would 
catch fish from the ocean and bring it to me once a week, so I 
knew my meat portion was already accounted for when I had to go 
grocery shopping. A legal team, Scott Marcus and Associates, 
made payment arrangements and things like that so I could 
maintain housing even while I didn't have income.
    But most importantly was the Philadelphia Veterans Multi-
Service & Education Center. They provided me with case 
management, housing assistance, security, and first and last 
month's rent. They helped me get beds, food vouchers.
    I would say partnership and teamwork, at least locally, 
would be a big help. All the veterans service organizations 
should share some kind of computer system maybe or at least 
have monthly classes where employees are required to inform 
each other of what other organizations experience as far as 
providing veterans services, maybe even an awareness of what 
resources remain in each system for the fiscal year so veterans 
are given proper direction, even when turned away from one 
organization.
    Veterans should be working at those places designed to 
assist veterans. Organizations should have a clear process that 
is typed up and given to a veteran so that they don't feel like 
they are waiting forever for assistance. Case managers should 
have company travel cards because veterans can't always travel, 
don't have public transportation. Complete furniture 
assistance, because once you get housing, it doesn't mean that 
you have actually something to put in it.
    I want to say that I am grateful that I received help from 
the veterans service center. I know it would improve the lives 
of other veterans if some changes were made. Overall, PVMSEC 
was truly a blessing to me. They provided me with affordable 
housing. I would specifically like to thank my case manager, 
Aronda Smith, and Jackie Ries, who is their coordinator. Thank 
you.
    [The prepared statement of Ms. Flanagan can be found on 
page 58 of the appendix.
    Chairwoman Biggert. Thank you so much.
    Mr. Hill, you are recognized for 5 minutes.

  STATEMENT OF CAESAR HILL, VETERAN, UNITED STATES NAVY, AND 
     COMMUNITY AFFAIRS MANAGER, CATHOLIC CHARITIES OF THE 
           ARCHDIOCESE OF CHICAGO, CHICAGO, ILLINOIS

    Mr. Hill. Good morning. Chairwoman Biggert, Ranking Member 
Gutierrez, and Representative Green, thank you. I am here today 
to appeal to you to intensify and support all programs and 
services as they relate to the betterment of my fellow 
veterans, especially with regard to housing.
    In 2010, Secretary of Veterans Affairs Eric Shinseki set 
some bold new plans for addressing homelessness of veterans. 
His plans included the reduction from 131,000 veterans in 2008 
to 59,000 in 2012.
    Hand-in-hand with housing is a need for employment. The 
unemployment rate for veterans who served on active duty in the 
United States Armed Forces at anytime since September 2001, a 
group referred to as the Gulf War II era veteran, was 12.2 
percent in 2011. And that is according to the U.S. Bureau of 
Statistics. There is also a need to examine service-connected 
disability benefits. I do not believe this is asking too much, 
but is only appealing for what is decent and deserved.
    All my life I have done it the American way, close, loving, 
caring, supportive family, religious upbringing, college 
graduate, and plenty of professional employment prior to my 
enlistment in the United States Navy in 1977, and thereafter, I 
received a Naval commission until 1983. I returned home and 
eventually earned a commission, an appointment under then-Mayor 
Harold Washington as district manager, Chicago Department of 
Human Services, until the mayor's death in 1987.
    Thereafter, I was able to bridge the employment gap, but 
there came a series of layoffs always seemed geared toward 
budget constraints or budget program cuts and the like. The 
bridge was always gapped, but in 2004, I faced yet another 
systemwide layoff. And despite savings and a valiant effort to 
bridge the gap, it was not to be. I effectively became 
homeless. Yes, it was very devastating to me, but at that exact 
moment, I realized this is not just about me, and I also 
remembered two very important rules of the Hill household: rule 
number one was that you never give up; and rule number two was 
never forget rule number one.
    I stayed at the Lincoln Park Community Shelter in Chicago, 
a very special place. Its challenging and vigorous programs 
call for accountability in accomplishing short- and long-term 
goals toward economic stability and permanent housing.
    So I left there, and I went to a place, wonderful place, 
the St. Leo Campus for Veterans, the first of its type, large-
scale, single-population housing for formerly homeless 
veterans. The stability that is provided at this wonderful 
facility adds to the camaraderie of veterans, rest, respite, 
and stability, all made possible through the Catholic Charities 
of the Archdiocese of Chicago. Other services there include 
case management, programs that address the challenges of drug/
alcohol abuse, and physical and mental disabilities. There is 
supportive employment through our Veterans Employment Program, 
an enterprising program, the Veterans Painting Enterprise.
    The need continues and the recommendations are that we need 
more HUD-VASH vouchers and the shortening of the process in 
order to cut down on long waiting time; the assurance of hiring 
of veterans through the Department of Labor Office of Federal 
Contracts Compliance; housing provided through properties owned 
by the Federal Government; and streamlining the process for 
determining service-connected disability ratings and decreased 
disparity between States in the amount of benefit payments.
    The Department of Veterans Affairs Office of Inspector 
General found that the annual average disability payment in 
Illinois was $6,961 and in New Mexico it was $12,004. The 
national average payment was $8,890. And also, we need to 
determine civilian employment opportunities as they relate to 
military jobs prior to their disembarkation. I would like to 
thank you for the time and God bless America.
    [The prepared statement of Mr. Hill can be found on page 67 
of the appendix.]
    Chairwoman Biggert. Thank you, Mr. Hill.
    Ms. Peyton, you are recognized for 5 minutes.

 STATEMENT OF BABETTE PEYTON, VETERAN, UNITED STATES ARMY, AND 
   RESIDENT, CATHOLIC CHARITIES ST. LEO RESIDENCE, CHICAGO, 
                            ILLINOIS

    Ms. Peyton. First of all, I am honored to be here, 
Chairwoman Biggert, Ranking Member Gutierrez, Congressman 
Green, and members of the subcommittee. I am a little nervous 
here. Bear with me.
    Before I start and run out of time, I want to thank 
Catholic Charities so much. They have just been a godsend for 
me, who has been independent most of my life. Ms. Higgins, who 
is here with us, and the other people from USA Catholic 
Charities at home; Bertel Smith, who is with our employment 
program; my case manager and all the case managers really at 
St. Leo, where I reside now, including Ms. Pettigrew, and over 
at the VA, the VA has played a very important part in my life; 
and a homeless person in the area is Ms. Linda Lyons; and 
another gentleman who is the head of that, the name is escaping 
me, but I will come back to that. I just want to say thank you 
for everything.
    I am honored to be selected to come here. And let me just 
go--I was number one in my battalion and received my first 
stripe during basic training. God has been a part of my life 
since the beginning of my life, and He continues to be there, 
and I think He had something to do with me being selected, 
praise God.
    My job during the term--I had two jobs when I was in my 
duty station, but they both had to deal basically with 
traumatic things. One was with the children, and I used my 
skill set as a dancer to work with these kids who couldn't 
speak because there was something traumatic, and by the time 
they got finished, they were speaking because they didn't want 
me to leave.
    And then they put me as part of the Polytrauma Medevac 
Team, where I worked with people who came in, wounded soldiers 
who were trying to be stabilized, where we sent them back to 
the United States. It was rough. Some came with arms gone, legs 
gone, faces, sides. I saw death on a regular basis.
    But I just want to say that it gave me pride to be able to 
do that, and I was in a lot of pain myself during that time 
because I was injured early in the military. I decided to stay 
in there because we had things going on in this world, and like 
was said, when you volunteer for the military, it is different 
than even getting married, you really say I do, and your life 
could be required of you. Whenever there is something going on, 
most of you probably remember 9/11, we can't say, I don't want 
to go out, I don't want to be--we go. We follow orders. We go 
where it is necessary. We do what is necessary because we know 
freedom is important, and I am just going to say, I wish they 
never changed their bases across the country because you see 
they attacked us here. I think they need to rethink that.
    Okay, going back into this. You have my testimony, so if I 
deviate a little bit from that, I hope you don't mind. But I 
just wanted to let you know how I became homeless. From a long-
term injury while I was in the military, I ended up with 
paralysis on the left side that I have right now. I am in a 
wheelchair. I thought I knew something about disability and 
being in a wheelchair, well, let me tell you, I didn't know 
anything until I got into this chair. So please make things 
veteran-friendly, think about stairs, think about access into 
places. And you need to have a veteran who is in a wheelchair--
I am going to say a veteran because I want veterans to get 
jobs--for all these building projects, not just to have the 
architects, but have consultants and dealing with that, we talk 
about housing.
    I got a chance to go to St. Leo. Some veterans told me 
about when it I was in the hospital. But guess what? When I 
left the hospital, before I left, I got my application in. They 
helped me to get my application in to St. Leo. They told me the 
waiting list was over 400. I didn't care because I didn't have 
an option. Without family to take you in, when you leave the 
hospital, you have to go to a nursing home, and that is where I 
went. I was in the nursing home for quite awhile and was headed 
to a hospice. I was writing my obituary. I was--anyway, my time 
is almost over. I would just like to say this: I am an archer 
right now. I help veterans become heroes at home.
    I would like to help you with things, and since this is the 
Subcommittee on Insurance, Housing and Community Opportunity, I 
would like to say that where I am at St. Leo, I see a lot of 
veterans who pass. They are not able to have a regular burial. 
The flag is nice. The cemetery is nice, but they don't have 
insurance. If they don't have money, many times people get 
involved, if they don't have money to have a funeral, so we are 
waiting and waiting for people to get funerals, and I know the 
issue is money, so I would like to see something being done in 
terms of that, okay?
    In terms of teeth, I am an archer. I am a wheelchair 
archer. I shoot with my hand and my mouth, and so my teeth are 
important. But you know what? I can't get it because my 
disability is not 100 percent. As a matter of fact, I am still 
fighting to get it back after all these years. And, guess what, 
did you know that you can die from having a tooth problem? I 
didn't know that. I would like to see a veteran opportunity 
fund for veterans who lose licenses, et cetera, where they can 
keep them for employment and stuff. I would like to see timely 
Social Security Disability, I never got disability from Social 
Security because my numbers weren't in order, and I don't want 
to keep going on because I see the time is gone. I am mindful 
of the time.
    I just want to say thank you so much again, Congresswoman 
Biggert, Congressman Gutierrez, Congressman Green, and all the 
other members of the subcommittee, and to Catholic Charities 
and my fellow veterans. Anytime you see a veteran, please take 
time, even if they are members of your household, to say thank 
you for your service, thank you for your service, and thank you 
for your time, and many of you are veterans' heroes, I love 
you. Thank you. My name is Babette Peyton.
    [The prepared statement of Ms. Peyton can be found on page 
77 of the appendix.]
    Chairwoman Biggert. Thank you. Thank you so much.
    We will now begin the questioning.
    Each Member will have 5 minutes to ask questions.
    I will begin by yielding myself 5 minutes.
    Ms. Flanagan, in your testimony, you say that no 
organization would help you until you had an eviction notice in 
hand. Can you explain why you would have to have that or you 
would be ineligible for housing assistance?
    Ms. Flanagan. I noticed you mentioned in your opening 
statement about HUD-VASH, that program as well you have to have 
an eviction notice or at least the threat of an eviction notice 
typed from your landlord or the property manager in order to 
receive even HUD-VASH, and all the other like local programs, 
State-funded programs that I ran into while I was trying to 
make phone calls to try to stay at least where I was at just 
for a little bit more time.
    Chairwoman Biggert. So what you are saying is you have the 
housing, but then you can't pay the rent, and so then you have 
to have--it is not that you want to move to someplace else? It 
is to stay in that particular housing?
    Ms. Flanagan. It is to stay where you are at, yes, or to 
even be considered homeless, that is like the beginning of the 
process is to have an eviction notice.
    Chairwoman Biggert. Okay, thank you.
    Mr. Hill, in your written testimony, you say that you were 
homeless for a period of years following a layoff and a series 
of unfortunate events. However, you also state that you never 
give up, which is great. How much of a factor has your 
determination to succeed played a role in your success?
    Mr. Hill. The rules of ``never give up'' are forever with 
me from my family. It was very important that I persist through 
the 18 months of homelessness. It wasn't about me at the 
shelter. We were a group who used the interdependency of the 
group to help lift each other up. And, I left there for St. 
Leo, and it represented a reversal of circumstances in my life. 
This development by Catholic Charities is nothing new. They 
have been helping veterans since right after World War I. 
Obviously, they remain on the frontline, and through these 
programs and services, through developments like St. Leo, they 
gain higher ground on the war on poverty. No one should have to 
join our military services and, whether they fight on foreign 
shores or otherwise, come home and then have to face another 
war, a war on poverty, and that war has just as many victims as 
any other war. So where veterans are concerned, it is not right 
that this happens to them.
    Chairwoman Biggert. Thank you.
    And then Ms. Peyton, you highlight the importance of 
outreach for low-income, disabled, and homeless veterans. 
Before I ask you that question, I saw a picture of how you 
shoot archery, and it is fantastic. You humbly neglected to 
mention that you have a score of 299 out of 300, and you have 
won many, many awards at that. So, congratulations.
    Ms. Peyton. Thank you very much, Congresswoman Biggert.
    Chairwoman Biggert. What kind of outreach would have been 
most helpful to you when you came back? You said you had a 
third-floor apartment you couldn't get to because you couldn't 
walk up the stairs. What did you do immediately?
    Ms. Peyton. I was in the hospital, so I was kind of out of 
it, but let me tell you the things, the logistics that I really 
faced, the barriers that I faced that were very difficult. One 
is having either some type of program, I won't use the word 
program, having assistance in getting myself moved out from 
there. I didn't have the money for that. I was able to get my 
stuff in storage because some people went there. I don't know 
what went into my storage, keeping that going. Transportation 
for someone in a wheelchair is really, really rough; that is a 
big thing, transportation, transportation, transportation 
everywhere. If you have transportation, that means you won't 
necessarily have to go into a nursing home.
    Maybe you talk about housing, helping have some places for 
veterans to go because mentally, I am going to tell you, 
Congresswoman, the thought of being homeless when you come from 
an independent state is devastating. So assistance to get into 
places like St. Leo without having to have that kind of money 
because if you don't have it, if you don't have income, you 
can't get in. They were wonderful. But a lot of the time, 
people are not able to do that. Veterans stepped up and 
veterans organizations stepped up for me because I had been out 
there to help pay my security deposit.
    But then, you have a lot of other things. Assistants in the 
house, I heard about one of the bills to help for caregivers, 
that is really important to get help. You can live 
independently in an apartment if you can get some help. You 
don't have to be in a nursing home. I don't care what people 
say, everybody doesn't die in a hospice. When you think about 
that, it is depressing. So transportation, I would say, more 
assistance dealing with the process of assessing somebody's 
income, and finding ways to bridge those gaps, and then the 
understanding that wherever we are right now is a transit; it 
is not forever. So how do we get the financial preparation, 
income, et cetera, from that so we can make room for others who 
find themselves in that situation. Thank you.
    Chairwoman Biggert. Thank you so much.
    My time has expired.
    The gentleman from Illinois, Mr. Gutierrez, is recognized 
for 5 minutes.
    Mr. Gutierrez. Thank you so much.
    Of course, I would like to ask Ms. Flanagan, so do you 
believe that the Administration's stated objective of ending 
veterans' homelessness by the year 2015 is achievable? And what 
steps do you think we need to take to achieve such a goal, 
whether in 2015 or in the immediate future?
    Ms. Flanagan. Thank you, Congressman Gutierrez.
    I do believe it is achievable because the same way this 
country trusted a 17-year-old girl to hold a weapon and go 
defend the rights of this Nation, and the same way that this 
country is asking me, as a homeless single parent, to speak and 
express the things that I go through, is the same way it shows 
the belief, and it shows the dedication, and I 100 percent 
believe, with a few changes, by 2015, the homelessness could be 
severely--
    Mr. Gutierrez. If you had to change one thing today, what 
is the first thing we should change, Ms. Flanagan?
    Ms. Flanagan. The first thing I would change is the 
employment, because a lot of the reason why veterans are 
homeless is because the employment--not that they are not 
employed, but they are not employed at jobs that make enough 
money to sustain themselves. So I would definitely change the 
way veterans are looked at for employment or maybe their 
employment rates or selection, that kind of thing.
    Mr. Gutierrez. Welcome, Mr. Hill, a fellow Chicagoan, it is 
good to have you here this morning. Same question, by 2015, we 
want to reach the goal of ending homelessness, can we achieve 
it, and what is the first step you would take?
    Mr. Hill. I think there are evident signs of Secretary 
Shinseki's goals being met with the reduction of homelessness 
in vets. I do think we need more supportive housing programs 
akin to the St. Leo campus for veterans. I think there needs to 
be more outreach to veterans from the VA and from social 
organizations.
    Mr. Gutierrez. How should the VA reach out to veterans more 
effectively? What steps should they take to reach out to 
veterans more effectively?
    Mr. Hill. I think that they should physically go out in the 
field and especially look for veterans who are living in the 
public way, and there are quite a few. I have encountered many 
from the Vietnam era who are--the difference between that 
veteran and today's veteran, is that veteran was compelled to 
service through the draft and was not as welcome as those who 
are returning today. So, yes, with more outreach, more 
supportive housing programs, especially HUD-VASH vouchers, and 
shortening of the time that it takes to receive those vouchers, 
I think the goal is entirely feasible.
    Mr. Gutierrez. Thank you.
    Ms. Peyton, welcome.
    Ms. Peyton. Thank you.
    Mr. Gutierrez. Another fellow Chicagoan. I am happy to have 
you here. I loved to hear your story and read about it 
yesterday. It is good to see you persevere and be triumphant.
    Ms. Peyton. Thank the Lord.
    Mr. Gutierrez. What is the first thing, what is the top 
thing we should do, Ms. Peyton? You are in the field, you see 
it.
    Ms. Peyton. The first thing I think we need to do is to 
reevaluate if that is really going to be realistic in terms of 
2015, as we are here now on the brink of 2013, we are here 
right now to come up with suggestions. I think the process here 
is kind of long to get things going, but I think it is moving 
in the right direction.
    Number one, I think I can speak as a disabled veteran and 
someone in a wheelchair, I think this is something new, why 
don't you convene a congressional--a White House conference on 
veteran affairs? Now, that will be able to look at housing--
don't forget business because business creates the jobs. A lot 
of people, they look for jobs, but you have to have a business. 
Small businesses are driving--you need big business, too, 
because small business contracts with big business, so we have 
to keep everybody in the equation. So if we get a congressional 
and White House conference on small business, and we do that at 
the local levels, county levels, whatever the levels are that 
people come together nationally with the top recommendations 
with some action plans suggested and where are appropriations 
so people can start looking for those before they come. I think 
that we might be able to come up with some solutions. Please 
keep veterans in the process, not just on the sidelines, 
because that is important in making it happen. So again, your 
immediate response, I think we need to reevaluate the timeline. 
I think that is something we put together, that might be the 
answer, then I could shut up. And that could answer for us. How 
is that?
    Mr. Gutierrez. Please don't. Thank you so much.
    Ms. Peyton. I love you. Thank you.
    Chairwoman Biggert. The gentleman yields back. The 
gentleman from Virginia, Mr. Hurt, is recognized for 5 minutes.
    Mr. Hurt. Thank you, Madam Chairwoman, and I was also 
hoping I could, with unanimous consent, make my opening 
statement a part of the record.
    Chairwoman Biggert. Without objection, it is so ordered.
    Mr. Hurt. I want to thank the Chair for her leadership on 
this issue, and I want to thank each of you all for your 
service to our country: Ms. Peyton; Mr. Hill; and Ms. Flanagan. 
I do think that as we face challenging times here in 
Washington, we have borrowed $16 trillion, we borrow 40 cents 
on every dollar we spend, to sustain that debt, sustain 
Washington's spending, I do think that it is probably a uniform 
belief among all of us on both sides of the aisle that our top 
priority as a Nation is our national security and supporting 
those who provide that national security and those who have 
provided it, and so I think that this hearing is very 
important, and I hope that it will be useful in trying to 
address these really serious issues.
    Along with that, it seems to me--I was elected 2 years ago, 
so I have been here for a year-and-a-half. It appears to me 
from my time in Washington that there are scads and scads of 
different agencies that are charged with the responsibility of 
caring for those who have taken care of us in our national 
security and national defense, and not only are there Federal 
agencies, but you have State agencies, and in some places, you 
have local agencies that are all committed to this.
    I think that the intent is good, but what strikes me is as 
all these agencies work, and obviously a lot in the private 
sector as well, but from a government standpoint, it seems to 
me that as these agencies struggle to support our veterans on 
issues of finding housing, finding homes, finding jobs, and 
making sure that our veterans have high-quality health care, 
that it must be very, very confusing for anybody who wants to 
access those services, and I think about my own district office 
in Virginia where we have a great staff, and we will get calls 
from veterans or we will get calls from any constituent, and 
they will call seeking some help with something, and they will 
just be so relieved to finally find somebody who can help 
direct them in the right way because it is so confusing, there 
are so many different programs, et cetera, et cetera, et 
cetera, that it has to be overwhelming to those who are trying 
to access that, and so when they call, we just say, we are so 
glad you called because I think we can help you, but they 
hadn't heard that before, because they just didn't know where 
to go.
    And so this is sort of a general question, but I would love 
to hear from each of you what you think we can do to better 
make sure that our veterans know that there are services and 
that there are ways to access them, and how do we get that 
information to them so that they can get the services? Maybe I 
can start with you, Ms. Flanagan, and then go down the line.
    Mr. Hill. If I may, there is the Transition Assistance 
Program (TAP) that awaits the disembarking veteran. I think 
that before disembarkation, that this program or programs like 
them should tell veterans all of the resources, somehow all of 
the information of these resources should be channeled through 
programs like this so there can be broad dissemination.
    Mr. Hurt. Like a one-stop-shop?
    Mr. Hill. Exactly. The Transition Assistance Program is 
very important.
    Mr. Hurt. Is that something that veterans or folks who are 
getting ready to go inactive, are they advised of this? Are 
they given information about this and are they given one number 
and one email address, and told, listen, if you have any 
problems, you call this number?
    Mr. Hill. It is a program that waits for them after they 
are discharged, and I think that, prior to the discharge, the 
veterans should have the assistance. Assistance in relating 
their military experience to civilian jobs is critical.
    Mr. Hurt. Sure.
    Mr. Hill. And so with programs such as TAP, a lot of 
information, vital information is provided.
    Mr. Hurt. My time is going to expire. I have about 20 
seconds. Ms. Flanagan or Ms. Peyton, do you have anything to 
add?
    Ms. Flanagan. I want to say that it has been my experience 
that when people are discharged from the military, they are 
given a one-stop number and email, this is where you can go, 
and these are all the services that are provided, and the State 
that you are going to as well. I think the problem is every 
year or two, that number and that email changes, and the 
previous number and email, the information on those sites 
remain there, but they are no longer valid. So you still end up 
with this kind of confusion, and until someone calls your 
office, I guess, they never really get to where they are trying 
to get. So, yes.
    Mr. Hurt. I think my time has expired. I would like to wrap 
up. I can hear from Ms. Peyton when we do another round.
    Chairwoman Biggert. No, we are not going to do another 
round, so just quickly, I will give you 1 minute.
    Mr. Hurt. Thank you.
    Ms. Peyton. Quickly, I was going to say that I think we 
need to have that Congressional-White House conference or 
summit on veterans affairs, and we can come to that. As someone 
who has been involved in the small business community, the 
Congress, I want to thank you so much for the Congressional 
Veterans Business Act. That is how our Young Entrepreneurs of 
the Universe organization was founded, to help veterans become 
heroes at home, get involved to create businesses to take 
advantage of the congressional laws, especially for service-
disabled veterans, to create specific jobs for those who are 
disabled, those who cannot work full time or regular part time.
    So I just want to say, when we do that, they said veteran 
businesses create more jobs for veterans than anybody else. So 
I think the private sector, the not-for profit sector, like 
Catholic Charities and people like you, the Congress, we love 
you all and the President, and I just want to say, I just want 
to thank, again, all of you, so much.
    Mr. Hurt. Thank you, Ms. Peyton.
    Chairwoman Biggert. The gentleman yields back.
    Mr. Green, you are recognized for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman, and I especially 
thank the witnesses for appearing today. Your testimony has 
really touched my heart, it really has. As I listened to some 
of the testimony, I literally had tears welling in my eyes, 
especially, Ms. Peyton, when you talked about independence, 
independence and the importance of independence.
    When you have been blessed to have mobility and you are 
ambulatory, and you sacrificed for your country by virtue of 
being a veteran, independence is something that is instilled in 
you as a troop, a trooper, and I just, I was overwhelmed when 
you talked about this independence.
    So what I would like for you to do is elaborate just a 
little bit more for people who may be at home or some other 
place listening to this, just how important is it for our 
veterans to have independence in their homes and to be able to 
negotiate their way through their homes and to do the common 
things that we take for granted, get a glass of water, just to 
be able to reach that faucet and get your own water. Would you 
kindly elaborate on that for a moment?
    Ms. Peyton. Absolutely.
    Thank you for the opportunity. Until I got into this 
wheelchair and was paralyzed on my left side, I couldn't begin 
to know what it was to be disabled. I thought I knew something. 
So on behalf of everybody everywhere, people might not feel you 
are as sensitive as you need to be, you just don't think about 
it until you are in that condition. So thank you for thinking 
about it. And I just ask you to think about something that is 
veteran-friendly. I have friends who can't see. I have friends 
who have no arms. I have friends who have no legs. I have 
friends who can't remember from one second to the next--I have 
to ask them things 2 or 3 times. But getting into your home, I 
was up on the third floor; I couldn't go up there anymore. I 
don't even know what went into the locker. If you can't get 
through a door, even in a building like this, they have the 
bars in there, they have the wide door, but you can't get in 
here unless somebody is going to push that door open. I can use 
my good leg to push it, which I will do.
    I am a trooper. So there are a lot of things that are 
necessary, and people have to get out of their homes; they are 
going to nursing homes because they don't have accessibility. 
They don't recommend that people go into their homes; they send 
people in to help them. These are things that are very 
important. Every one of us went into the military, whether we 
were drafted or whether it was voluntary, like me, with a sound 
mind, okay, with a sound body, and from a home address, and at 
least there ought to be some really amenable things to come 
back out so we can get more of a piece of the American dream.
    I know that Congress is working hard on it. And so I just 
want to thank you for the opportunity to be a part of this. And 
thank you, Catholic Charities, again. I can't say it enough, 
what they meant to my life. I think the accessibility, just so 
that you know, I was in the accessibility business before. I 
never envisioned myself in this need to need accessibility, and 
I don't talk about it, but boy is it important, and if we just 
think about when you go to a building that is, say, 10 stories 
high, 5 stories high, 4 stories high that has an elevator, 
probably none of you go to look for the stairs, you go to the 
elevator. With someone like me, I can't get up one stair. Think 
about us. If you can't reach for the faucet, they have 
innovative kinds of things. I have been going through some of 
these research projects where they can help with things. Think 
about us; don't think about dollars and cents in terms of it, 
the quality of life. Because the fact is disability can happen 
to anybody on a moment's notice. You hear about cars running 
into people and people getting paralyzed from the neck down. So 
many different things that happen to you or a family member, 
then you become engaged because it becomes personal. Well, it 
is personal with me and my friends around me especially because 
veterans, it is personal, so if there is anything I can do to 
add to that, please let me know. I had something left to me I 
couldn't even take because there was no accessibility. What can 
I do? And so, thank you all. Thank you. Thank you. Thank you. I 
love you all.
    Mr. Green. Thank you. I thank you again.
    And I want to also, Madam Chairwoman, thank Mr. Heck, who 
is the cosponsor of the legislation, and Mr. Cleaver, and the 
Republican staff members who have been very helpful, and the 
Democratic staff as well. I believe that these things transcend 
party lines. They transcend ideology. They really are about 
helping people who have gone out of their way to help us.
    So, thank you again.
    And thank you, Madam Chairwoman. I yield back.
    Chairwoman Biggert. Thank you.
    The gentleman from Illinois, Mr. Dold, is recognized for 5 
minutes.
    Mr. Dold. Thank you, Madam Chairwoman. I certainly want to 
thank you for holding this important hearing. I want to thank 
my friend from Texas for his leadership on this legislation. 
And I agree with him wholeheartedly that I think this is a 
piece of legislation and a topic that transcends party lines.
    I think it is one of those things that we owe each and 
every one of you a great debt of gratitude. I want to thank 
each and every one of you for your service to our country and 
to all veterans who are out there. And this is an issue that I 
think we need to come together to try to rectify. As we look at 
what is happening out there as veterans who are coming off the 
front lines are coming back and finding themselves either on an 
unemployment line or looking for a place to live, that is 
something that we as a country need to address and need to 
solve. So I want to thank each and every one of you for taking 
your time and coming to testify before this body today to help 
us try to figure out how we can better move things forward and 
help our veterans.
    Mr. Hill, I wanted to start with you if I may. I certainly 
enjoyed hearing your story, it is certainly an impressive one, 
as everyone here testifying. But certainly I enjoyed, in 
essence, the family's strongest rules: number one, never give 
up; and number two, always remember rule number one. Generally, 
that is what I hear from a lot of veterans; they never give up, 
which is why we have, I think, the strongest military in the 
world. But frankly, they are working too hard today to rely on 
your families rule number one and rule number two.
    In your testimony, you noted a number of goals and 
objectives and methods that homeless shelters generally use to 
help homeless veterans achieve economic stability. And Ms. 
Peyton talked about small business, and we will certainly let 
her talk more about that in a minute. But in your experience, 
what goals and objectives and methods help you the most during 
your most difficult times? And could you shed some light on how 
this Congress can help improve those?
    Mr. Hill. Yes. At the shelter, I mentioned their 
challenging and vigorous programs. We are required to keep a 
journal, if you will, of our job search efforts and the 
contacts thereof, our goals for short-term periods and 
milestone achievement dates as well. And it is important that 
we do set goals, both short- and long-term, and that they be 
relevant to the end goal of economic stability and permanent 
support of housing.
    The same existed at St. Leo Campus for Veterans. But the 
important thing was the housing stability that was there and 
the case management who would assist with issues that would 
arise, issues concerning or problems were really and are 
readily addressed at the facility. Some of the goals that are 
relevant to a committee such as this would be to provide 
funding for further such housing, support of housing, for 
veterans in other States in major cities and rural sections as 
well. So I see this sort of support of housing as being key. 
Then, there is the aspect of existing properties that are owned 
by the Federal Government, in good condition, can be converted 
and services can be injected into those facilities for veterans 
who reside there. So, yes.
    Mr. Dold. Ms. Peyton, you talked before a little bit about 
small business. As a small business owner, certainly I share 
your zest for small business and trying to make sure we are 
putting more people back to work. From your perspective, as we 
look at the unemployment rate, which is far, far, far too high 
today across the country, pick your State--it is generally too 
high, there are some exceptions to that--but generally, we are 
looking at a national unemployment rate of 8.1 percent. In 
Illinois, as we know, it is higher in the State of Illinois 
than it is nationally. What relationship do you put our 
economic and unemployment rate with that homelessness? And can 
you shed a little light on that?
    Ms. Peyton. Absolutely. If you don't have economics, you 
can't be housed anywhere. As a matter of fact, for a lot of 
places, you can't go if you don't have some kind of income, 
even if you are homeless. That is crucial. Small business 
creates first a job for the person who is doing it, and then it 
expands as business expands. That is how jobs are created, in 
general. You have not-for-profit jobs and government jobs, but 
everything is based on people; it is based on sales. If a 
hospital doesn't have the number of people in there, they close 
down. If a school doesn't have the number of students, they 
close down.
    Now, there are other factors that go into that, but small 
business, veterans' small businesses, they make the most jobs 
for veterans. And our organization just wants them to make sure 
that they have a small component that they cross-train people 
for, for jobs that can give people dignity. Because let me just 
share this with you: Besides the homelessness, for some, the 
homelessness turns into suicide. People don't talk about that. 
And that is an important thing because if somebody is talking 
to you, you know something is going on, but you can't really 
get it, and the next thing you know, they are gone. And these 
are not people necessarily that you would consider basket 
cases.
    Plus, the face the homelessness has changed. It used to be 
thinking about the homeless as somebody who is just a derelict 
or something. A lot of homeless people now, especially 
veterans, they have doctor degrees, masters degrees, bachelor 
degrees. But the thing is, we need to start getting more into 
business. We need to think about that. And for veterans, even 
though they have--Congress has put some great programs together 
for veterans. But I am going to tell you one of the biggest 
things is the promotion of those and access to credit and 
capital.
    You might have to do some--what do they call those things, 
Madam Chairwoman? Amnesty for credit, amnesty for taxes, 
amnesty for educational loans, some way of looking at 
reassessing the Social Security Disability thing, because 
everybody is going to have to pay in for Social Security from 
their jobs at certain times to allow them to be able to get 
that stability of some kind of income to move forward. But 
certainly, we need to get back to that congressional and White 
House conference, summit conference of veterans affairs, and 
include that in there. And maybe--I was part of the White House 
Conference of Small Business back in 1986 and 1995. I was 
selected from Springfield from the small business advocates, 
and I would just say this, I would probably add the component 
of not-for-profit organizations to be a resource there for, 
like, Catholic Charities and the like that have model programs.
    Catholic Charities is a place where when you walk into 
there, the only thing they need to have right now is for you to 
come and take a look. The place is wonderful. We need a little 
place for jobs. We have a job service program. But jobs, 
remember, everybody, it doesn't come without business. Business 
creates jobs. So I would just say I love you all and thank you.
    Mr. Dold. I thank the witnesses.
    And my time has expired, Madam Chairwoman.
    Chairwoman Biggert. Thank you.
    The gentlelady from California, Ms. Waters, is recognized 
for 5 minutes.
    Ms. Waters. Thank you very much, Madam Chairwoman. I want 
to thank you for holding this hearing.
    I am sorry I could not be here at the beginning of the 
hearing, but this is one that I think we should all pay 
attention to.
    I would like to thank my colleague from Texas, Mr. Green, 
for all the work he has put into Housing for Heroes and the 
leadership that he has provided on this issue. And let me say 
to our panel, thank you for being here today. We do have 
Members from both sides of the aisle who are very concerned 
about the plight of our veterans, the housing problems that our 
veterans are encountering and the homelessness. The number of 
veterans on the street in America is shameful.
    And there is a lot of misunderstanding about why veterans 
are on the streets and homeless. A lot of people think, oh, 
veterans, certainly there are housing vouchers, or there are 
nonprofit organizations, there are churches, there are places 
for veterans. And your being here today will help us to 
understand why some of those thoughts about it being easy for 
veterans to find housing are just misplaced. It is just not 
true.
    I am from Los Angeles, and downtown Los Angeles is just 
full of homeless veterans. And so, I know you have been talking 
with our Members here today and telling them about your plight 
and what you learned and what you know. And I don't want to ask 
you to go through it again, but I work with U.S.VETS very 
closely, but I know that U.S.VETS cannot accommodate all the 
veterans we have who are homeless. When a veteran is homeless 
and they have a disability, what is happening out there? Will 
that disability help to expedite assistance for them so that 
they can get into housing?
    You are shaking your head, Ms. Peyton.
    Ms. Peyton. No. And that is one of the things--I am sorry, 
thank you so much, Congresswoman. One of the things I wanted to 
add--when you are invited to something like this, you are just 
so honored and overwhelmed, you just can't get everything down. 
But I am in a wheelchair right now, paralyzed on my left side. 
I am an archer. I had 299--thanks so much, Congresswoman 
Biggert--actually 299 out of 300 with a bow. I am an archer 
right now. But not only has it given me the opportunity to do 
that; it has improved my self-esteem. So I want to throw in a 
plug for especially disabled or injured or wounded veterans to 
get involved in sports. They have adaptive sports for 
everything you can think of. I do scuba diving. I do golfing. I 
do swimming. I do--you name it, I am doing it, because they 
have assisted technology in order to help in that. And that is 
something a lot of your States and a lot of your places, you 
should really look at. Everybody, I would think, would want to 
have a committee of veterans, like a task force of veterans, 
wherever level you are to find out, and include people with 
disabilities. That is something that can be done.
    In terms of policy, I think they ought to have people who 
have disabilities, like myself, those who can't see, those who 
have obvious things that are impediments to get housing and the 
like, to go to the head of the line. We are the ones who are 
really out there. But we have to wait like everybody else 
because of policies and regulations. I am sure people are not 
doing that on purpose. So if they can have that, that is one 
thing.
    The second thing I would say in terms of include everybody 
in the financial, whole financial picture. Our organization, 
the Young Entrepreneurs of the Universe, a veterans' 
initiative, we partner with the Federal Reserve Bank of 
Chicago, and once a year, we have a program. Our next program 
will be April 25th at Jesse Brown VA Medical Center. We talk 
about fiscal budgeting, finance, all that. But small 
businesses--
    Ms. Waters. What happens, Ms. Peyton, if one who is 
disabled goes to the VA and says, I need housing. What happens?
    Ms. Peyton. That depends on who you talk to. In our 
program, we have a Wounded Lady Warrior Project that we are 
working to try to get in every VA hospital, at least most of 
the big ones, a place for lady veterans to come so they can 
galvanize resources in life, both Federal, State, whatever, and 
local resources, because we served. We might not be the 
majority, but we deserve also. And since the majority of men 
take advantage, they can sit down anywhere in a hospital and 
talk to each other and network about this or that. For someone 
to say, maybe they could have a center there also, to be part 
to come and find out what specifically.
    I can give you an example. I saw a young lady at the 
hospital; she had no legs. I talk to every lady at the 
hospital. That is what I do when I see them. And I want to 
know, do they have any services? Do they have any needs, et 
cetera? And so I asked her where she was living. She said, an 
apartment. I said, how is it? She said, what do you mean? I 
said, can you get in your bathroom? She said, not in my chair. 
I said, what do you mean? She said, I have to get out of my 
chair and go on my hands and go into the bathroom. I said, do 
you have any bars? She said, no, I pull myself up on the sink. 
I said, well, you are coming to the hospital, what are you 
coming here for? She said, I am coming to get some legs. I 
said, we are going to get you set up with a social worker right 
now. So I took her over to the social work section.
    Now, she is coming to get legs. This has nothing to do with 
people and providing the proper services they have to do in the 
area, because one area is specializing in one thing and one is 
specializing in another. And everybody figures that it is 
covered, but it is not. Do you see what I am saying? So I am 
not blaming anybody. So maybe that might be something. We need 
places and information where people can get the same 
information. And the service providers, they can't think of 
anything else. They need somebody to help them or some resource 
to help them to refer with something like that. So I just 
wanted to give you that as an example of something concrete 
that has happened.
    Ms. Waters. I appreciate that.
    And I have to yield back my time. But there is an 
assumption that because we have such vast VA services in every 
city, every State, that once you go to the VA, you can tell 
them what your problems are, whether it is health or housing or 
what have you, and that they will work with you to connect you 
with those services. But obviously, what you are telling me is 
that not only is it not true, but the way that services are 
rendered in some places where you have to go to different 
places to access the services, that it is not easy, 
particularly if you are disabled.
    And, let me just say this and I will yield back. I am over 
time. There are some people, some Members of Congress, who are 
saying that the entire system needs to be revamped altogether, 
particularly as it relates to the claims that are put in for 
the disabled and the backlog that we all experience and the 
work that we are getting in our offices trying to help people 
get connected to have those claims worked on. Some people are 
saying we need to throw out the system altogether and come up 
with a system that works.
    Thank you very much, Madam Chairwoman.
    Chairwoman Biggert. Thank you so much.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for Members to submit written questions to these 
witnesses and to place their responses in the record.
    Thank you all for being here today. You have been a 
wonderful panel.
    Ms. Peyton. We thank you, too. I love you. Thank you so 
much. Praise God.
    Chairwoman Biggert. And with that, this panel is dismissed, 
and we will call up the second panel.
    I ask unanimous consent to have Mr. Edward Quill, chief 
administrative officer, Volunteers of America of Florida, 
available to assist panel two witness Ms. Baylee Crone, 
technical assistance director, National Coalition for Homeless 
Veterans, during the panel two question-and-answer period.
    I also ask unanimous consent to insert the following 
material into the record: a September 12, 2012, letter from the 
National Association of REALTORS; an April 15, 2012, letter 
from The American Legion; a September 11, 2012, statement from 
BAM House Incorporated; a September 11, 2012, statement from 
St. Paul's Senior Homes & Services; a September 12, 2012, 
letter from the Midwest Shelter for Homeless Veterans; a 
September 12, 2012, statement from Volunteers of America of 
Florida; a September 14, 2012, letter from Rebuilding Together; 
a September 14, 2012, statement from A Safe Haven; a September 
14, 2012, statement from Veterans Upward Bound; a September 14, 
2012, statement from Congressman Joe Heck; and a September 14, 
2012, statement from the Corporation for Supportive Housing.
    Without objection, it is so ordered.
    We will now turn to the second panel: Ms. Heather Ansley, 
Esquire, president of veterans policy, VetsFirst; Mr. Steve 
Berg, vice president for programs and policy, the National 
Alliance to End Homelessness; Ms. Baylee Crone, technical 
assistance director, the National Coalition for Homeless 
Veterans; Ms. Sandra Miller, chair, Homeless Veterans Committee 
of Vietnam Veterans of America; Mr. Arnold Stalk, founder of 
Veterans Village, Las Vegas, Nevada; and Ms. Eileen Higgins, 
vice president, Housing Services, Catholic Charities of the 
Archdiocese of Chicago, who is from my district.
    Thank you all for being here.
    With that, we will start with Ms. Ansley. You are 
recognized for 5 minutes.

  STATEMENT OF HEATHER L. ANSLEY, ESQ., MSW, VICE PRESIDENT, 
                   VETERANS POLICY, VETSFIRST

    Ms. Ansley. Thank you. Chairwoman Biggert, Ranking Member 
Gutierrez, and other distinguished members of the subcommittee, 
thank you for the opportunity to testify regarding VetFirst's 
views concerning the housing needs of homeless, low-income, and 
disabled veterans.
    My oral testimony will focus on the needs of certain 
disabled and/or low-income veterans for assistance with home 
modifications and repairs. According to the Department of 
Veterans Affairs, 3.47 million veterans receive VA disability 
compensation. Disability compensation is available for veterans 
who have an injury or illness that is caused or aggregated by 
their military service. In August 2011, 864,000 veterans 
reported having a service-connected disability rating by the VA 
of 60 percent or greater out of 100. In addition, 300,000 low-
income veterans who are either disabled or over the age of 65 
who might meet other requirements receive VA pension benefits.
    Access to affordable accessible housing, as it was 
highlighted in the earlier panel, is a critical issue for many 
disabled veterans. The ability to return home after incurring a 
significant disability is an important aspect of reintegrating 
into your family and community. For veterans who have newly 
acquired injuries, this may mean living with family members for 
a time prior to focusing on securing their own homes.
    VA provides access to home adaptation assistance for 
eligible disabled veterans and servicemembers. These programs 
include the specially adapted housing and the special housing 
adaptation grant programs. These programs are available to 
veterans and servicemembers who are permanently and totally 
disabled as a result of a disability connected to their service 
and who have a qualifying disability. These grant programs 
provide a maximum of $63,780 and $12,756, respectively, as 
indexed for the cost of construction. A related program is the 
temporary residence adaptation grant program, which allows 
individuals who are eligible for both of the previous two 
programs but who do not have a home of their own to adapt a 
home of a family member. This is a relatively new program that 
has recently had some major changes to increase the number of 
veterans who might use this program.
    Another program that is available through VA is the Housing 
Improvements and Structural Alterations Program. Veterans who 
require an improvement or alteration to their home due to 
disability related to their service may receive up to $6,800, 
while those who are enrolled in the VA healthcare system but 
who do not have a service-connected disability may receive up 
to $2,000.
    VetsFirst fully supports the housing adaptation benefits 
currently available through the VA. Many of our members have 
greatly benefitted from the use of these programs. Furthermore, 
we support efforts to increase eligibility and funding amounts 
for individual grants to ensure that disabled veterans are able 
to live in their communities throughout their lives. We also 
understand that we must seek to leverage all resources if we 
are to meet the needs of veterans who are not eligible for VA 
programs but for whom home adaptations are a necessity.
    VetsFirst and Rebuilding Together, a national housing 
nonprofit, have collaborated with Representative Al Green in 
developing legislation that would help to meet these needs. The 
Housing Assistance for Veterans Act of 2012, the HAVEN Act, 
would authorize the Secretary of Housing and Urban Development 
to establish a pilot program that provides grants to nonprofit 
organizations to rehabilitate and modify homes of disabled and 
low-income veterans. The HAVEN Act leverages the resources of 
nonprofits by expanding their capacity to meet the housing 
adaptation and home repair needs of our disabled and low-income 
veterans. Many existing housing nonprofits and more recent 
veteran-focused housing nonprofits have stepped forward to 
assist in meeting the housing needs of these veterans.
    Nonprofits not only bring in volunteer leverage but also 
the private sector and foundations. Through a very small 
investment, the HAVEN Act would engage nonprofits to test the 
ability to serve those who have served. Rather than directly 
providing services for veterans through Federal funding the 
proposal helps meet the need through national nonprofits that 
compete for limited funding. The pilot program would require 
HUD and VA to establish and oversee the program to ensure that 
veterans' needs are addressed. We believe that this 
collaboration will build on the efforts of the VA and HUD to 
work together in addressing veterans' homelessness.
    Veterans who are disabled and/or low-income would be 
eligible for assistance. The definition of disability considers 
the physical and mental limitations that veterans may face, 
regardless of whether the limitations are connected to their 
service. Low-income veterans are those whose incomes do not 
exceed 80 percent of median income for a particular area. When 
applying, organizations will need to detail their plans for 
working with the VA and veterans service organizations to 
identify those who can benefit.
    Preference will be given to organizations that have 
experience in providing housing rehabilitation and modification 
for disabled veterans and who serve veterans in rural areas. 
Organizations will be able to modify and rehabilitate the 
primary residence of an eligible veteran, rehabilitate a 
residence that is in a state of interior or exterior disrepair, 
and install energy-efficient features or equipment. 
Organizations will be required to provide a match of the grant 
award, and assistance must be provided either at no or very 
little cost to the veteran. The program would provide $4 
million a year over a 5-year period. We believe that passage of 
this bipartisan legislation will help to address a portion of 
the housing needs of low-income and disabled veterans who may 
otherwise have limited or no resources. Thank you for the 
opportunity to testify. This concludes my statement.
    [The prepared statement of Ms. Ansley can be found on page 
39 of the appendix.]
    Chairwoman Biggert. Thank you.
    Mr. Berg, you are recognized for 5 minutes.

 STATEMENT OF STEVE BERG, VICE PRESIDENT, PROGRAMS AND POLICY, 
           THE NATIONAL ALLIANCE TO END HOMELESSNESS

    Mr. Berg. Thank you, Chairwoman Biggert. And thank you all 
for coming to this hearing today.
    I am Steve Berg, from the National Alliance to End 
Homelessness.
    There are many things that we in the housing field owe 
veterans. We owe them a lot more than just not being homeless. 
However, we do owe them not being homeless. And that is my area 
of expertise, so that is what I am going to talk about today.
    Once in a while in this country, we get a chance to do 
something really extraordinary. That extraordinary thing is to 
actually solve a problem, solve a social problem, not just take 
the edge off the problem, not just make people feel better 
about the problem, but actually solve the problem.
    I want people to come away from this hearing today 
understanding that we are right on the edge, right on the verge 
of having solved the problem of homelessness among veterans. 
There have been many steps that people on this subcommittee, 
and other people in this room have been working on for years 
and years to get us to this point.
    Solving a social problem like this from a policy 
perspective, there are basically four steps to it. The first 
step is to put in place an overall monitoring and management 
infrastructure that tells us how big this problem is, whether 
it is getting better or worse, and holding people accountable 
for results. That has been done by the VA and HUD working 
together on things like the Annual Homeless Assessment Report 
and the veterans information in there. We now have much better 
information nationally and locally. People know if they are 
making progress.
    The second step is to put in place an array of program 
models that address all aspects of the problem. Veterans who 
are homeless range from people with the most severe 
disabilities who have been on the streets for years to people 
whose problems with housing are just short term; they are due 
to a short-term economic crisis. People in that whole range 
need different things.
    The VA and HUD together now have the range of programs in 
place, from the HUD-VASH program, which serves the most 
disabled people, to the new program, called the Supportive 
Services for Veterans Families Program, modeled after the 
Homeless Prevention and Rapid Rehousing Program that HUD ran to 
provide short-term assistance to people whose problems are 
basically economic.
    The third step is to fund those programs to scale. And I am 
happy to say that in the bills that the House Appropriations 
Committee has already passed, and the bills that the Senate 
Appropriations Committee has passed, what was in the 
Administration's budget, the money is now on the table to fund 
these programs at the level they need to be funded at to make 
sure that every veteran who is homeless, and every veteran who 
is at severe risk of homelessness over the next couple of 
years, will get the services they need if those bills pass. We 
think they will pass. There is bipartisan support. So those are 
the first three steps.
    The fourth step, which we still have in front of us and 
which may be the hardest, is to put in place a local structure 
to ensure that these policies are implemented at the local 
level, that each veteran--and what this means in a very 
concrete sense is that each veteran who is homeless, each 
veteran who is at risk of homelessness will be found, will be 
contacted, will be brought into the system, and will get what 
they need to have stable housing. This is a challenge that 
people working in the field around the country have embraced, 
whether at VA or HUD, or at agencies such as those who have 
testified here today. There is a hunger for doing this out 
there.
    People all over the country want this to succeed. So what 
can this subcommittee do? Here are a few things: First, through 
monitoring and through oversight, make sure these programs are 
targeted the right way. There is a range of programs. Some are 
designed to help people with the most severe barriers; some are 
designed to work with people without such severe barriers. The 
HUD-VASH program is the most important example. That is 
permanent supportive housing. It is deep, long-term rental 
subsidies combined with intensive social services. Just about 
any low-income veteran's life would be made better if they had 
this, if they had HUD-VASH. But the most severely disabled 
veterans, those who have been homeless the longest, they are 
going to stay homeless unless they get HUD-VASH. So, it is 
essential that HUD-VASH be targeted to this group. It is 
essential that VA and HUD programs work together at the local 
level. It is essential that people are assessed, that there is 
a coordinated assessment system at the local level to make sure 
that each veteran gets what they need.
    My time is up. If you have questions now or in the future, 
I am happy to answer them. But I want people to know we are on 
the verge of solving this problem. We have one more big step to 
take, and I hope we take it.
    [The prepared statement of Mr. Berg can be found on page 47 
of the appendix.]
    Chairwoman Biggert. Thank you, Mr. Berg.
    Ms. Crone, you are recognized for 5 minutes.

 STATEMENT OF BAYLEE CRONE, TECHNICAL ASSISTANCE DIRECTOR, THE 
            NATIONAL COALITION FOR HOMELESS VETERANS

    Ms. Crone. Madam Chairwoman, Ranking Member Gutierrez, and 
distinguished members of the subcommittee, my name is Baylee 
Crone, and I am here representing the National Coalition for 
Homeless Veterans, the only national organization solely 
dedicated to preventing and ending homelessness among veterans. 
I am truly humbled to be a part of this panel of experts today. 
We have folks on this panel and on the previous panel who 
really know firsthand what the meaning is of this mission and 
have been working tirelessly for over 20 years to make this a 
reality.
    We are here today to talk about housing options for 
homeless veterans. And inevitably, as Mr. Berg stated, this 
starts with HUD-VASH. And that is for good reason, given the 
incredible success of this program to date. I want to take a 
moment to express our deep gratitude at the bipartisan 
leadership of Congress in supporting the build-out of HUD-VASH.
    Today, we are closer to the goal of providing housing to 
60,000 chronically homeless veterans than many people thought 
could be possible in this short period of time. This targeted 
expansion has really changed the world as we know it. And this 
is for veterans, as Mr. Berg said, who would likely fail 
without the intensive support of HUD-VASH. I want to thank you 
for your diligent, thoughtful, sometimes critical, and really 
steadfast support of this important program.
    Now, while the progress of HUD-VASH is definitely something 
to be commended, HUD-VASH is not the full answer. Not all 
homeless and at-risk veterans need the intensive supports that 
are tied to a HUD-VASH voucher, but they still have critical 
care needs and face difficult obstacles. Homeless and at-risk 
veterans can have any combination of needs based on several 
risk factors, either related to generally being homeless, so it 
could have to do with their family history, illness, 
disability, or they might have risk factors and needs based on 
their service related to PTSD, traumatic brain injury, military 
sexual trauma, or chronic pain. What matters most is that there 
is a comprehensive system of care that exists and is maintained 
to maximize the number and visibility of access points for 
veterans who are experiencing or at risk of homelessness.
    We must make sure that these various access points are 
connecting the homeless veterans to the services that meet 
their most pressing needs. And at this time, the most pressing 
need is access to affordable housing. When I say access to 
affordable housing, I mean options that increase the number of 
housing units available, but also that increase veteran access 
to existing units that are designated for low-income 
individuals. These options go far beyond HUD-VASH, and several 
of these programs have been and will be discussed by my 
colleagues. We have the programs and momentum to make it happen 
if we can continue connecting the right pieces within our 
communities.
    For the 20,000 veterans who are exiting grant and per diem 
programs each year, access to affordable housing is the key 
that leads to a real reduction in the number of homeless 
veterans who are showing up in the annual counts. The need, 
however, goes beyond those in HUD-VASH. The numbers of at-risk 
veterans who are accessing homeless-specific VA services are 
increasing at a staggering rate. You see over 1.4 million 
veterans who are currently low-income below the poverty level, 
and of those 1.4 million, it is estimated that up to around 
150,000 of them are likely to experience homelessness. 
Stabilization and rapid rehousing is going to require a closely 
coordinated effort within communities to appropriately target 
resources and services. For over 20 years, homeless veteran 
service providers have understood that a network of care built 
around health services of the VA Medical Center is going to 
provide the best foundation to connect homeless veterans to the 
tools they need to promote housing stability.
    In 2011, the mandate that veteran data be captured in the 
Homeless Management Information System (HMIS), and integrated 
into community planning set the stage for this coordinated 
network to more thoroughly and efficiently connect the 
mainstream homeless resources of HUD. This data clarity now 
allows consolidated planning partners to more accurately 
prepare for the housing needs of veterans in communities.
    This does not demand proportional representation but rather 
equitable access. These veterans are not broken; they are often 
injured physically and mentally, but they aren't beyond help if 
assistance is delivered with purpose. Access to affordable 
housing is a fundamental component of this healing process. It 
allows veterans to harness the strengths and skills that they 
gained through their service, to integrate back into their 
communities, and to contribute back as citizens.
    As we move forward in this era of interagency collaboration 
and integrated community planning, we have better opportunities 
to provide homeless veterans with the tools to remain 
successfully and sustainably housed. And I have 19 more 
seconds, so I just wanted to add that when we are talking about 
the success of the 5-year plan, it is feasible by 2015. That 
doesn't mean that veterans will not become homeless during that 
time period and beyond 2015. But the important piece is that we 
have the networks in place to be there for them and the access 
points in place to be there for them if they do experience or 
are at risk of homelessness. Thank you.
    [The prepared statement of Ms. Crone can be found on page 
52 of the appendix.]
    Chairwoman Biggert. Thank you so much.
    Ms. Miller, you are recognized for 5 minutes.

    STATEMENT OF SANDRA A. MILLER, CHAIR, HOMELESS VETERANS 
             COMMITTEE, VIETNAM VETERANS OF AMERICA

    Ms. Miller. Madam Chairwoman, and distinguished members of 
the subcommittee, good morning, and thank you for the 
opportunity to present testimony here today, where I will focus 
on HUD-VASH.
    My name is Sandra Miller, and I am the chair of the 
Homeless Veterans Committee of Vietnam Veterans of America. I 
also sit in my real job as the director of homeless residential 
services at the Philadelphia Veterans Multi-Service & Education 
Center, which is really a mouthful, where I oversee the 
operations of 125 grant and per diem beds, 30 of which are 
designated for homeless women veterans.
    Vietnam Veterans of America (VVA) has as its number one 
legislative priority the issue of accountability, 
accountability at every level of any agency, Federal, State or 
local, impacting veterans and their families. Without 
accountability, countless dollars are lost to programs that are 
ineffective, inefficient, and even potentially unsafe. We must 
all be keepers of the gate, ensuring our programs are achieving 
the goals they were established to attain.
    After all these years of attention given to the homeless 
veteran issue, it remains a disturbing situation. Can we bring 
a total end to veteran homelessness? My sense is, no, because 
there will always be those who choose this way of life.
    We can however offer and assist those who seek change, but 
they can't make it on their own; they can't make it out of the 
darkness. So we continue to try to find a way to help those who 
are helping these veterans.
    VVA strongly supports and urges the continued funding and 
expansion of the HUD-VASH program. However, VVA has advocated 
for both HUD and the VA to establish an oversight mechanism 
monitoring for compliance to ensure its intended effectiveness.
    Oversight of the VASH program will prove to be an 
invaluable tool, creating effective processes, efficient 
utilization of dollars, and successful accomplishments. 
Oversight will ensure that vouchers are administered, 
distributed, and utilized to the fullest extent possible, and 
for the purpose they were intended.
    Are HUD-VASH vouchers being distributed equitably 
nationwide? We don't know this. We do know that in some areas--
we do know that some areas are saturated with vouchers, while 
others are screaming for more. We know that one of the barriers 
to providing housing vouchers in some locations is the lack of 
case management staff. Alaska is one prime example of the 
staffing situation which results in the delay in issuing or 
utilization of these vouchers.
    Are all VA medical centers providing the appropriate level 
of case management to the veterans in HUD-VASH? We don't know 
this either. We do know that case management activities vary 
from VA facility to VA facility. VVA does appreciate that case 
management is able to be contracted out to community service 
providers, and applauds the recognition that one no agency or 
organization can do it all. The VA and the veterans need these 
collaborations now more than ever if we are to end veteran 
homelessness.
    Here is what we do know: According to the 2011 annual 
homeless assessment report, there were over 67,000 homeless 
veterans, down 12 percent from 2010. As of May, there were 
48,000 vouchers authorized and 39,000 in use. One challenge 
many of our veterans face in receiving HUD-VASH vouchers is the 
expense of moving into their new apartment. This has been 
addressed in some fashion by the awarding of VA-supported 
services for veterans' families across the country. SSVF can 
assist veterans with these moving costs.
    Does HUD-VASH work? Yes, VVA believes it does. It does 
provide housing opportunities for homeless veterans. However, 
we are concerned that not enough attention is placed on income, 
motivation or continued housing stability of the veterans. If a 
veteran is placed in HUD-VASH with only minimum income, that 
income may not be enough to sustain that veteran. Recently, a 
number of veterans who came from my program into HUD-VASH who 
were receiving public assistance were cut off with no notice. 
They now have zero income. How do they survive? What assistance 
is there to ensure that they will be able to sustain their 
housing with no income? Realizing that HUD-VASH focuses on 
housing, it is our opinion that long-term sustainable income 
must be part of the intake assessment as well as ongoing case 
management. Demanding anything else is surely setting up the 
veteran to fail.
    Motivating the veteran to return to the workforce, if 
possible, or to seek additional income may prove to be an 
integral part of the case manager's responsibilities. Case 
managers are their frontline defense for these veterans, and 
they should be assisting with all avenues. VVA believes in the 
importance of the housing first model as ideal for some 
veterans. However, VVA also believes that housing ready model 
may be the best fit for others.
    It has always been the belief of VVA that our homeless 
veterans must be given every opportunity to succeed in 
independent living. There are no cookie-cutter solutions and 
VVA embraces the interagency council's mantra of no wrong door. 
In my written statement, I have outlined additional concerns 
that VVA has regarding VA homeless grand and per diem service 
centers and per diem payment methodology. VVA is committed to 
continuing the advocacy and effort to identifying supportive 
solutions that will make a difference in the lives of every 
veteran who finds themselves homeless. We hope that some of 
these solutions will help when that veteran finds herself home.
    [The prepared statement of Ms. Miller can be found on page 
70 of the appendix.]
    Chairwoman Biggert. Thank you.
    Mr. Stalk, you are recognized for 5 minutes.

 STATEMENT OF ARNOLD STALK, PH.D., FOUNDER, VETERANS VILLAGE, 
                       LAS VEGAS, NEVADA

    Mr. Stalk. Good morning. My name is Arnold Stalk, and I am 
the founder of Veterans Village, which is located in downtown 
Las Vegas, Nevada. I would like to thank the Members of the 
House of Representatives, and more specifically, a special 
thank you to this Subcommittee on Insurance, Housing and 
Community Opportunity. It is truly an honor to be here.
    I have been developing, operating, constructing, and 
advocating for special needs housing development since 1977. I 
began my career as a VISTA volunteer, and my first community 
project was a design of a methadone clinic for heroin addicts 
on Los Angeles' Skid Row. I have developed and operated special 
needs housing developments such as emergency shelters, 
transitional housing, scattered site rental housing, and 
homeownership prototypes that are replicable developments 
throughout southern California initially, and then in other 
areas of the United States.
    The reason I go through this background is because I have 
been doing this for 37 years, and I believe that the system is 
broken. It is broken, but I believe that it is repairable. I 
have been in a private practice consultancy firm, and I also 
have my own nonprofit organization. In my career, I have been 
blessed to have the opportunity to be of service to create 
facilities and residences for people to create humanistic and 
respectful environments for people from all walks of life.
    I am a founder of Veterans Village in downtown Las Vegas, 
which is a 125-unit residence and is dedicated to the creation 
of an environment that is a home and a respite for United 
States veterans. This is a unique and innovative approach to 
holistic and comprehensive housing with collaborative support 
services. Public and private collaborative partnerships have 
been created to provide services to residents, including 
education and degree programs, nutritional programs, exercise, 
training, medical services, mental health counseling, 
specialized activities, and special events.
    One recent example of a truly public-private partnership is 
the Home Depot Foundation, in which our nonprofit share in 
Veterans Village has received a grant to rehabilitate and 
retrofit the Veterans Village through a Home Depot Day of 
Service program, which is scheduled for this coming October 25, 
2012.
    I am here this morning to discuss barriers that homeless 
and low-income U.S. veterans face in securing housing 
assistance from Federal agencies. I would like to advocate for 
improved Federal agency collaborations, program efficiencies, 
and the administration of homeless and housing services for 
veterans along with the private sector. I also would like to 
express my support for H.R. 6361.
    In Las Vegas, Nevada, and southern Nevada, for example, the 
lack of affordable housing for veterans who are homeless, at 
risk of becoming homeless, and those more independent veterans 
who are seeking affordable housing is extremely limited. 
Additionally, there is a lack of collaborative efforts by and 
between public and private sector entities to provide better 
housing services as well. Obstacles that nonprofit 
organizations and faith-based organizations face in helping 
homeless and low-income veterans secure housing assistance and 
services from Federal programs is significant, due to a lack of 
available housing, rental subsidy vouchers, HUD-VASH, 
Department of Veterans Affairs, Supportive Services For Veteran 
Families Program and other voucher programs, numerous 
bureaucratic delays, and the lack of improved collaborations 
between local, State, and Federal agencies along with nonprofit 
providers to advance the approval processes for veteran housing 
and related supportive services.
    Suggestions for improvement to Federal housing programs to 
better serve homeless and low-income veterans include: to enact 
H.R. 6361, the Vulnerable Veterans Housing Reform Act; to 
create a one-stop shop processing system for veterans to access 
affordable and attainable housing, which will require local, 
State, and Federal agencies to work together to speed up the 
accessibility, affordability, and availability of housing and 
support systems for veterans; to provide incentives for private 
sector developers to develop newly built and retrofitted 
affordable and creative housing models for veterans and to 
create housing models for replication across the United States; 
and to create incentives for private sector businesses to 
provide medical and mental health employment opportunities, 
another service for our veterans as well.
    Our Veterans Village is an example of the public-private 
partnership that has taken an aging motel, which was about to 
close, and retrofitted it into a comprehensive resident and 
respite for our veterans. Partnerships in collaboration have 
been formed including the Medical Reserve Corps of Southern 
Nevada, the Las Vegas Urban League, Health of Southern Nevada, 
Lutheran Social Services, the American Red Cross, the U.S. 
Department of Veterans Affairs, and others. This model is 
replicable in every State, city, county, and jurisdiction 
across the United States, providing affordable, attainable and 
respectable housing for our U.S. veterans.
    Thank you for this opportunity to testify and share my 
experiences today and the opportunity to be of service to our 
country.
    [The prepared statement of Mr. Stalk can be found on page 
79 of the appendix.]
    Chairwoman Biggert. Thank you very much.
    Ms. Higgins, you are recognized for 5 minutes.

STATEMENT OF EILEEN HIGGINS, VICE PRESIDENT, HOUSING SERVICES, 
  CATHOLIC CHARITIES OF THE ARCHDIOCESE OF CHICAGO, CHICAGO, 
                            ILLINOIS

    Ms. Higgins. Thank you, Chairwoman Biggert, Ranking Member 
Gutierrez, Representative Green, and members of the 
subcommittee.
    My name is Eileen Higgins, and I am here representing 
Catholic Charities of the Archdiocese of Chicago, where I serve 
as the vice president of Housing Services, including those 
programs serving homeless veterans. Persons without homes or on 
the brink of homelessness struggle with similar concerns: few 
affordable housing options; low-paying jobs; and lack of access 
to mental and physical health care and support.
    Veterans facing homelessness may have experienced many 
issues in war, including conflict-related injuries, both 
physical and psychological. Reentry to civilian life is often 
impeded, and veterans often experience a downward spiral into 
homelessness.
    Additionally, employment can be challenging due to both the 
current economic climate as well as the need for training and 
transferrable skills to enter the civilian workforce. We at 
Catholic Charities are committed to ensuring our veterans are 
receiving appropriate care by providing wraparound services to 
assist them in achieving self-sufficiency to the highest degree 
possible. For nearly a decade, Catholic Charities has 
recognized that many of our clients needing emergency services 
are veterans. Homeless and hungry veterans dine at our Catholic 
Charities suppers, visit our emergency assistance center for 
food, clothing, and shelter, and access care through our 
substance abuse program. They benefit from our case management 
and counseling programs.
    We know how to reach out to veterans, and we know how to 
empower persons to overcome homelessness. One recent success 
story is our St. Leo campus for low-income veterans. This 
campus includes 141 units of supportive housing built by a 
collaborative effort of the VA, State and local government, and 
private funding, among which is the Illinois AMVET Service 
Foundation. Development of this residence was a part of a 
national project made possible by the VA. Catholic Charities 
and four other agencies were invited to participate in this 
program. Subsequent funding through the U.S. Department of 
Labor and the U.S. Small Business Administration has allowed us 
to expand services to veterans through its employment and 
training program.
    There are many partners in the successful administration of 
this program as well, including everyone from local private 
employers to the local VA health administration and the Council 
of Network Homeless Coordinators. For more than 5 years, agency 
representatives have participated in monthly gatherings with 
the VA staff and veteran services provided through VISN 12. 
These meetings allow for coordinated delivery of care and 
ongoing publicity for key programming. In fact, the key to the 
success of this program is the collaboration of so many 
partners in order to provide all of the wraparound services 
necessary to assist veterans who have multiple barriers to 
housing and employment, including mental and physical 
disabilities, chronic health problems, behavioral health 
issues, criminal records, and poor work histories. The veterans 
in our care receive intensive case management and supportive 
services, plus referral to our partners for services to address 
their complex level of need.
    At a higher level, the HUD-VASH voucher program is entirely 
key to assisting homeless veterans whatever their situation 
because it provides funds for case management services 
associated with the housing. These intensive personalized case 
management resources often make the difference between 
sustained stability and return to housing crisis. Some of the 
obstacles we face, even with the great collaboration, is the 
collaboration. Clearly defined roles and responsibilities in 
the communication of these--and communication of these among 
them. Early on, we experienced a breakdown in communication 
among our Federal partners when it came to a decision about who 
was coordinating the case management services, for example, and 
found it necessary to take the lead in describing and defining 
that role. On paper, this seemed to be a duplication of 
services. However, in our analysis of the situation, it led us 
to understand that everybody played a role.
    Some of the obstacles that low-income veterans face in 
securing housing may include when a young man or women goes 
into the service, it is out of a sense of pride for their 
country, to support their education, or to open doors to a 
better future for themselves.
    Chairwoman Biggert. Ms. Higgins, if you could wrap up, we 
are facing a vote here.
    Ms. Higgins. We are indeed. So, I think I will thank you at 
this point for this opportunity.
    Chairwoman Biggert. Thank you so much.
    [The prepared statement of Ms. Higgins can be found on page 
63 of the appendix.]
    Chairwoman Biggert. Unfortunately, we have a number of 
votes on the Floor, so we are going to have to conclude this 
hearing, and submit additional questions to you in writing.
    But we are going to take time--each of us will do one 
question. So if you could be as brief as possible.
    My question is that we have heard that HUD-VASH vouchers 
are not being tracked, so HUD doesn't know if the vouchers have 
actually gone to veterans and that veterans are housed. How 
could we solve this problem?
    Mr. Berg, we will start with you, in one sentence.
    Mr. Berg. I think HUD does know that they are going to 
veterans. I think that is--the big part is, are they going to 
the veterans who are the most disabled, who won't get out of 
homelessness any other way? I think that is the key question.
    Chairwoman Biggert. Anyone else?
    Okay. Then, we will go to Mr. Green.
    Mr. Green. And I will be very brief.
    Quickly please, and you can maybe simply raise your hands, 
if you agreed with the three previous witnesses in terms of 
what they said about modification and accessibility? Would you 
just kindly raise a hand? Let's let the record reflect that 
everyone agrees.
    Madam Chairwoman, I yield back.
    Chairwoman Biggert. Thank you. I am sorry that we have to 
cut the hearing short.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for Members to submit written questions to these 
witnesses and to place their responses in the record.
    I thank you all. And you have great written statements, 
which are very helpful to us, and we will submit questions for 
you.
    Thank you, thank you, thank you.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]



                            A P P E N D I X



                           September 14, 2012


[GRAPHIC] [TIFF OMITTED] 76128.001

[GRAPHIC] [TIFF OMITTED] 76128.002

[GRAPHIC] [TIFF OMITTED] 76128.003

[GRAPHIC] [TIFF OMITTED] 76128.004

[GRAPHIC] [TIFF OMITTED] 76128.005

[GRAPHIC] [TIFF OMITTED] 76128.006

[GRAPHIC] [TIFF OMITTED] 76128.007

[GRAPHIC] [TIFF OMITTED] 76128.008

[GRAPHIC] [TIFF OMITTED] 76128.009

[GRAPHIC] [TIFF OMITTED] 76128.010

[GRAPHIC] [TIFF OMITTED] 76128.011

[GRAPHIC] [TIFF OMITTED] 76128.012

[GRAPHIC] [TIFF OMITTED] 76128.013

[GRAPHIC] [TIFF OMITTED] 76128.014

[GRAPHIC] [TIFF OMITTED] 76128.015

[GRAPHIC] [TIFF OMITTED] 76128.016

[GRAPHIC] [TIFF OMITTED] 76128.017

[GRAPHIC] [TIFF OMITTED] 76128.018

[GRAPHIC] [TIFF OMITTED] 76128.019

[GRAPHIC] [TIFF OMITTED] 76128.020

[GRAPHIC] [TIFF OMITTED] 76128.021

[GRAPHIC] [TIFF OMITTED] 76128.022

[GRAPHIC] [TIFF OMITTED] 76128.023

[GRAPHIC] [TIFF OMITTED] 76128.024

[GRAPHIC] [TIFF OMITTED] 76128.025

[GRAPHIC] [TIFF OMITTED] 76128.026

[GRAPHIC] [TIFF OMITTED] 76128.027

[GRAPHIC] [TIFF OMITTED] 76128.028

[GRAPHIC] [TIFF OMITTED] 76128.029

[GRAPHIC] [TIFF OMITTED] 76128.030

[GRAPHIC] [TIFF OMITTED] 76128.031

[GRAPHIC] [TIFF OMITTED] 76128.032

[GRAPHIC] [TIFF OMITTED] 76128.033

[GRAPHIC] [TIFF OMITTED] 76128.034

[GRAPHIC] [TIFF OMITTED] 76128.035

[GRAPHIC] [TIFF OMITTED] 76128.036

[GRAPHIC] [TIFF OMITTED] 76128.037

[GRAPHIC] [TIFF OMITTED] 76128.038

[GRAPHIC] [TIFF OMITTED] 76128.039

[GRAPHIC] [TIFF OMITTED] 76128.040

[GRAPHIC] [TIFF OMITTED] 76128.041

[GRAPHIC] [TIFF OMITTED] 76128.042

[GRAPHIC] [TIFF OMITTED] 76128.043

[GRAPHIC] [TIFF OMITTED] 76128.044

[GRAPHIC] [TIFF OMITTED] 76128.045

[GRAPHIC] [TIFF OMITTED] 76128.046

[GRAPHIC] [TIFF OMITTED] 76128.047

[GRAPHIC] [TIFF OMITTED] 76128.048

[GRAPHIC] [TIFF OMITTED] 76128.049

[GRAPHIC] [TIFF OMITTED] 76128.050

[GRAPHIC] [TIFF OMITTED] 76128.051

[GRAPHIC] [TIFF OMITTED] 76128.052

[GRAPHIC] [TIFF OMITTED] 76128.053

[GRAPHIC] [TIFF OMITTED] 76128.054

[GRAPHIC] [TIFF OMITTED] 76128.055

[GRAPHIC] [TIFF OMITTED] 76128.056

[GRAPHIC] [TIFF OMITTED] 76128.057

[GRAPHIC] [TIFF OMITTED] 76128.058

[GRAPHIC] [TIFF OMITTED] 76128.059

[GRAPHIC] [TIFF OMITTED] 76128.060

[GRAPHIC] [TIFF OMITTED] 76128.061

[GRAPHIC] [TIFF OMITTED] 76128.062

[GRAPHIC] [TIFF OMITTED] 76128.063

[GRAPHIC] [TIFF OMITTED] 76128.064

[GRAPHIC] [TIFF OMITTED] 76128.065

[GRAPHIC] [TIFF OMITTED] 76128.066

[GRAPHIC] [TIFF OMITTED] 76128.067

[GRAPHIC] [TIFF OMITTED] 76128.068

[GRAPHIC] [TIFF OMITTED] 76128.069

[GRAPHIC] [TIFF OMITTED] 76128.070

[GRAPHIC] [TIFF OMITTED] 76128.071

[GRAPHIC] [TIFF OMITTED] 76128.072

[GRAPHIC] [TIFF OMITTED] 76128.073

[GRAPHIC] [TIFF OMITTED] 76128.074

[GRAPHIC] [TIFF OMITTED] 76128.075

[GRAPHIC] [TIFF OMITTED] 76128.076

[GRAPHIC] [TIFF OMITTED] 76128.077

[GRAPHIC] [TIFF OMITTED] 76128.078

[GRAPHIC] [TIFF OMITTED] 76128.079

[GRAPHIC] [TIFF OMITTED] 76128.080

[GRAPHIC] [TIFF OMITTED] 76128.081

[GRAPHIC] [TIFF OMITTED] 76128.082

[GRAPHIC] [TIFF OMITTED] 76128.083

[GRAPHIC] [TIFF OMITTED] 76128.084

[GRAPHIC] [TIFF OMITTED] 76128.085


</pre></body></html>
